         estimony

                      STATEMENT OF
                   ROBERT J. LIEBERMAN
              ASSISTANT INSPECTOR GENERAL
                      FOR AUDITING
                DEPARTMENT OF DEFENSE
                       BEFORE THE
      SUBCOMMITTEE ON GOVERNMENT MANAGEMENT
             INFORMATION AND TECHNOLOGY
        HOUSE GOVERNMENT REFORM COMMITTEE,
        UNITED STATES HOUSE OF REPRESENTATIVES
                            ON
            DEFENSE FINANCIAL MANAGEMENT



Report No. D-2000-120     DELIVERED: May 9, 2000



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:



I am pleased to have the opportunity today to provide the views

of the Office of the Inspector General on the challenges faced

by the Department of Defense in efforts to account for its funds

and physical assets, provide useful financial information to

decision makers, and operate its huge payroll and contractor

payment operations efficiently.



Major DoD Financial Management Issues.



In testimony before this subcommittee almost exactly one year

ago, the Deputy Inspector General described the huge scope and

unparalleled complexity of DoD finance and accounting

operations, as well as the Department’s realization during the

1990’s that virtually all of its administrative processes were

outmoded and unaffordable in their current forms.   Likewise, new

statutory requirements for audited annual financial statements

caught the Department unprepared and without the automated

systems needed to compile commercial type accounting data.

Along with all other DoD management sectors, the financial

management community embarked on a long-term reform effort with

particular emphasis on developing a new generation of modern,

more standardized and networked systems.   Last year we provided
                                                                   2


our assessment that neither the full integration of DoD support

operations, including financial management, nor the achievement

of clean audit opinions on the consolidated DoD financial

statements were feasible short term goals.     We continue to

believe, as stated in last year’s testimony, that the Department

remains a few years away from being able to achieve favorable

audit opinions on most major financial statements.     The

testimony last May covered a number of specific concerns,

including:



•    The longstanding difficulty in measuring the progress made

     to improve financial reporting and the danger of focusing

     on audit opinions on financial statements as the only

     metric;



•    The paramount importance of developing properly integrated,

     reliable financial information systems;



•    Overly complex contracts and accounting requirements.



Today I would like to offer our observations on where each of

those matters stands, as the DoD enters its second decade of

post-Cold War management reform and restructuring.
                                                                    3


Financial Reporting.   The DoD efforts to compile and audit the

FY 1999 financial statements, for the Department as a whole and

for the 10 subsidiary reporting entities like the Army, Navy and

Air Force Working Capital Funds, were massive.   Nevertheless

they could not overcome the impediments caused by poor systems

and inadequate documentation of transactions and assets.    In

terms of opinions, the audit results differed little from the

previous year.   A clean opinion was again issued for the

Military Retirement Fund, but disclaimers were necessary for all

other funds, including the DoD-wide consolidated statements.



The General Accounting Office (GAO) written testimony elaborates

on the results of our audits in considerable detail, so I will

not repeat the rather lengthy list of deficiencies that

precluded favorable audit opinions.   We agree with GAO’s summary

of those problems, as well as the overall assessments by both

the GAO and the DoD that the Department is making progress

toward compliance with the new Federal Accounting Standards.



Audit opinions on the DoD-wide and major fund financial

statements still are the sole widely used metric for quantifying

progress.   Unfortunately, this means that considerable

improvement can be made in each of the huge DoD reporting

entities without any effect on the overall audit opinions.
                                                                   4


For example, the Air Force made a concerted effort to correct

records and compile support for transactions so that a favorable

audit opinion could be achieved on its Statement of Budgetary

Resources (SBR).   Notwithstanding these numerous improvements

and corrections, the effort could not overcome the problem of an

unreliable opening balance.   Work continues on the ending

balance for FY 1999.   Despite a relatively near miss, the

Air Force SBR audit result is scored as another failure, a

disclaimed audit opinion, but this is only part of the story.



Although the DoD has put considerable effort into improving its

financial reporting, it seems that everyone involved-—the

Congress, the Office of Management and Budget (OMB), the audit

community and DoD managers—-have been unable to find out or

clearly articulate exactly how much progress has been made, what

is the planned pace of further action, how much remains to be

done and how much risk exists in terms of meeting goals and

schedules.   Nor has it ever been clear how much the various

aspects of this effort have cost to date, how much more will be

needed and whether the effort is sufficiently resourced.



Ironically, although the Department annually compiles voluminous

documents in response to statutory requirements for multi-year

financial management improvement plans and other data, very
                                                                     5


little of that information is consistently updated, analyzed and

used for day to day program management or frequent senior

management oversight.    Much of it has to be collected in annual

data calls to the DoD component organizations.    The various

reports to OMB and Congress, the annual financial statement

audits, and even supplementary audits cannot substitute for

structured, readily accessible, meaningful and frequent internal

management reporting.    Current data on project performance, cost

and schedule status should be routinely provided up a clearly

defined program management chain and shared with external

reviewers.



Currently, a lot of crucial management information exists, but

it is dispersed in various organizations and databases.    A few

years ago, in response to advice from the IG, DoD, the Defense

Finance and Accounting Service centralized its management of

system acquisition projects into a single program office, which

was a significant improvement.    That office endeavors to track

and coordinate systems development and modification efforts for

a couple of hundred systems, most of which it does not own or

control.     Various other DoD components have organized teams and

established internal reporting requirements to track their Chief

Financial Officer (CFO) Act compliance progress.    The Under

Secretary of Defense (Comptroller) has agreed to track the
                                                                   6


status of various actions that his office, OMB, GAO, and the IG,

DoD, have jointly developed and agreed to as part of the effort

to address impediments to acceptable financial statements.

Also, the IG, DoD, and the Military Departments track the status

of management action on all audit recommendations.



In our view, the Department needs to determine how best to

collate and share available information, establish any

additional metrics needed and require sufficient internal

reporting to enable the CFO Act compliance effort to be managed,

monitored and controlled as a well integrated program.



In our November 1999 report, “Deficiencies in FY 1998 DoD

Financial Statements and Progress Toward Improved Financial

Reporting,” we recommended that DoD emulate its highly

successful “Y2K” management approach to address the challenge of

attaining CFO Act compliance.   As was the case with the Y2K

conversion, the CFO Act challenge has been designated by the

Secretary of Defense as a high priority.   Similarly, achieving

CFO compliance is fundamentally a systems problem, could have

goals, criteria and milestones set forth in a clear management

plan, involves all DoD organizations and functional communities,

and cannot be overcome by the primary functional proponent

without the active assistance of the rest of the Department.
                                                                  7


Likewise, both efforts have entailed extensive audit

verification and testing, and the Congress, OMB and GAO are all

strongly interested in measuring progress toward the goal.

There would be several advantages to this approach.    The

Department knows it works, managers are familiar with

terminology related to defined phases and system status, and it

entails fairly simple and verifiable metrics to show progress

and highlight risk areas.



Although the Department reports in its current Financial

Management Improvement Plan that the Y2K concept has been

adopted, implementation has been disappointingly slow.



The Plan of September 1999 established March 31, 2000, as the

milestone for completing the Assessment Phase for CFO Act

compliance of 168 critical systems.   Despite the Y2K program

experience that initial system assessments and status reports

often were overly optimistic, incomplete or inconsistent, audit

community involvement in validating milestone status has been

limited.   There has been no feedback on whether this key

March 31 milestone was met and what the reported results were.



We plan to work even more closely with the Department over the

next several months to apply lessons learned from the Y2K
                                                                     8


experience to various other DoD-wide information system

challenges.     In addition to CFO Act compliance, information

assurance and oversight of system development projects are areas

where we recommend Y2K-like management approaches.



Systems Problems



Over the past year, two issues have underscored the severity of

the problems faced by DoD because of inadequate financial

systems and the challenges involved in new systems development.



The first issue relates to how DoD financial statements are

compiled.     When the financial reporting system of a public or

private sector organization cannot generate fully reliable

financial statements, accountants sometimes make accounting

entries, often as recommended by auditors, to complete or

correct the statements.     Making major entries or adjustments is

not the preferred way of doing business and there is

considerable attention paid to any significant change made to

official accounting records.     The notion of accounting entries

being made on a mass scale is completely foreign to Corporate

America, as is the prospect of such adjustments being

unsupported by clear audit trails.
                                                                    9


The audits of the 1999 DoD financial statements indicated that

$7.6 trillion of accounting entries were made to compile them.

This startling number is perhaps the most graphic available

indicator of just how poor the existing systems are.   The

magnitude of the problem is further demonstrated by the fact

that, of $5.8 trillion of those adjustments that we audited this

year, $2.3 trillion were unsupported by reliable explanatory

information and audit trails.



The second issue concerns the management of information system

development projects.   The Department has been working

throughout the 1990’s to reduce the number of separate systems

and to develop replacements for inadequate legacy systems.

Unfortunately, information systems development in the Federal

Government is a lengthy proposition.   The DoD efforts to develop

the next generation of financial systems have had to contend

with slowly evolving, but very significant, changes in Federal

accounting standards.   Also, most DoD modernization and

investment programs have faced severe competition for resources.

Finally, the Y2K problem may have distracted managers and

exacerbated existing resource problems to some extent.

Currently, the DoD plans to field all of the systems needed to

achieve CFO Act compliance by FY 2003.   We regard that as an

overly optimistic forecast.   Meeting information technology
                                                                  10


system development schedules is frequently a problem in both the

public and private sectors; the DoD is no exception.



The Department’s application of Clinger/Cohen Act principles to

development of the Defense Joint Accounting System (DJAS) was

severely criticized in the House Appropriations Committee Report

on the National Defense Appropriations Act for FY 2000.    DJAS is

one of the four systems chosen to be the next generation of

accounting systems replacing numerous legacy systems used by the

Army and most Defense agencies.   The Committee wrote:



          “Despite the importance of developing joint

          systems, the Department has allowed the Air Force

          and the Navy to opt out of this program and to

          develop and modernize their own distinct systems.

          Thus, this “joint” system will be fielded only to

          the Army and a few defense-wide activities.

          After its initial Milestone 0 approval, the

          timeline for completing the DJAS software

          development effort expanded from 16 months to

          six or more years, the benefits declined from

          $322,000,000 to $204,000,000 and are now

          characterized as ‘productivity savings’, whereas

          before they were real cost savings.   In November,
                                                                   11


           the DoD IG issued a draft report warning that

           DJAS had not completed the steps required under

           the program management process to be prepared for

           a Milestone I review.   In March, the Office of

           Program Analysis and Evaluation issued similar

           warnings about the dramatic change in the

           programs scope, cost, and duration.   Despite

           these serious concerns, the Department not only

           issued Milestone I approval, but also Milestone

           II approval at the same time, all without having

           a meeting of the IT OIPT to review the system.

           The Committee rejects this approval as

           inconsistent with the intent of the Information

           Technology oversight process and the Clinger-

           Cohen Act.”



We are currently auditing the status of the DJAS project, as

requested by the House Appropriations Committee.    We have not

yet officially reported on the matter, but initial results

indicate continued problems complying with Clinger/Cohen Act

requirements for careful management oversight when making

investment decisions.    DJAS life cycle cost would be about $.7

billion.   I point to this issue principally to emphasize that

more review of the dozens of other systems projects related to
                                                                     12


CFO Act compliance is likely to indicate other risks and issues.

Implementing the Clinger/Cohen Act is still ongoing in DoD.     We

are putting high priority, to the extent our constrained audit

staffing and budget levels permit, on supporting the Chief

Information Officer in his oversight role regarding all

information technology projects, including those for financial

systems.



Useful Financial Data



In adopting the private sector practice of audited annual

financial statements, the Congress clearly expected improved

financial management.



The lack of performance metrics and cost data that I previously

discussed handicap an assessment of whether the effort to attain

auditable financial statements has been worthwhile.   The key

question to be asked, however, is whether data produced in

compliance with Federal Accounting Standards and audited in

financial statement audits is useful to users--managers and the

Congress.   Because much of the data rolled up into annual

financial statements is also provided to users in various

reports and budget exhibits, often periodically during the year,
                                                                   13


the focus should be across the spectrum of financial information

reported within and by the Department, in whatever form.



Questions on the usefulness of various financial reports can

best be answered by the users, not auditors.   Unfortunately, we

are unaware of much feedback to the DoD CFO community along

those lines from other managers or Congress.   Hopefully this

dialogue will expand in the future, so that the accounting

community has the best possible idea of what managers and the

Congress actually need, when and in what form.



Financial statement audit results can be very arcane.   In my

view, some of the asset valuation issues will never have any

impact on DoD decision making.   However, other management

information deficiencies identified during these audits have

very practical implications.   At last year’s hearing, the

inaccuracy of DoD inventory data was discussed at length.    As

noted in our audit reports and the GAO testimony today,

inventory accuracy remains a problem.   Likewise, the inability

to determine actual patient workload and costs in the DoD health

care program is still a concern.   Today I would like to discuss

two other types of data, environmental liabilities and fund

status information.   In both cases, the data can be used for

multiple purposes and the controls over accuracy are important.
                                                                     14




Environmental Liabilities



We were unable to verify the $79.7 billion reported for

environmental liabilities on the FY 1999 DoD Agency-wide Balance

Sheet.   The reported amount, as large as it may seem, was

clearly understated.



The magnitude of DoD environmental cleanup requirements has been

a matter of intense DoD and Congressional interest for many

years, but information on costs is fragmented and often

unreliable.   It would seem logical that costs identified in

budget exhibits, other DoD environmental program reports,

Selected Acquisition Reports and financial statements should be

as consistent as possible, reconcilable and supported.    More

work is needed to move toward that goal.    Specifically, there

are unresolved policy issues regarding when to recognize

environmental disposal costs for other than nuclear powered

weapon systems on financial statements.    Also, the support for

many of the cost estimates that were included was inadequate.



For example, the $20.7 billion equipment disposal portion of the

$79.7 billion overall environmental liability estimate was

clearly incomplete, although improved over previous years.     The
                                                                   15


Air Force reported nothing.     The Navy, in contrast, estimated

$11.5 billion for nuclear-powered submarine and ship disposal.

This was the first time that those amounts were included in the

financial statements.     An open issue remains on when to

recognize disposal costs for most DoD weapon systems on the

financial statements—-as soon as estimates are made as part of

initial weapon system life cycle costing or much later when

disposal decisions are made.     We are working with the Department

and GAO to resolve the question.     Regardless of the decision, we

have recommended more aggressive action by the Military

Departments to ensure that acquisition program managers include

hazardous waste handling and disposal costs in the total

estimated ownership costs of their systems.     Last week we

published a report, “Hazardous Material Management for Major

Defense Systems,” which recaps the results of audits of nine

weapon system programs.     Those audits indicated commendable

emphasis by program managers on reducing the amount of

environmentally hazardous material that will require costly

disposal, but virtually no emphasis on including disposal costs

in life cycle cost estimates.



The DoD reported $34 billion as the liability for environmental

cleanup of unexploded ordnance at training ranges.     Reporting

this amount represents a significant improvement over FY 1998,
                                                                   16


when cleanup liabilities for training ranges were not recognized

or reported at all.    However, reporting was incomplete.

Although final DoD guidance for reporting liabilities for

cleanup of training ranges has not yet been published, it is

expected in FY 2000.



The Army, as DoD’s Executive Agent managing the Chemical

Demilitarization Program, reported about $8.9 billion in

environmental liabilities for FY 1999.    Further work is needed

to validate the support for those estimates, which are

particularly important because of the ongoing effort to dispose

of the chemical weapons stockpile.



Fund Status Data



The most fundamental budget execution and fund status data

maintained by DoD, and relied on by managers at all levels,

relates to amounts of authorized funding, obligations,

unobligated balances, outlays and unpaid (unliquidated)

obligations.   Because of the Antideficiency Act, which

prescribes criminal penalties for obligations or expenditures in

excess of appropriated amounts, and the desire to use all funds

efficiently, the primary purpose of DoD financial management

information systems over the years has been funds control.
                                                                 17




Based on results of audits of obligations and unpaid obligations

shown on the Statements of Budgetary Resources in the annual

financial statements, we continue to consider funds control a

concern.   The data for the SBR is drawn from the same sources as

data for the monthly SF133 Report on Budget Execution and for

the prior year actual column of individual appropriation program

and financing schedules, a fundamental budget exhibit.



Audits of FY 1999 financial statements indicated problems with

the accuracy and support for reported fund status data.



For example, Air Force auditors projected that $1.3 billion of

$36 billion of unpaid obligation balances were invalid.

Although this is not a large percentage, and may be adjusted

downward as review continues, the Air Force has numerous

unfunded requirements and it is cause for concern when over a

billion dollars is unavailable for use because of inattention or

administrative error.   Likewise, in audits of two Defense

agencies, we found 70 percent of obligations in one sample and

48 percent in the other to be invalid.



To ensure accurate fund status reporting, DoD must continue

efforts to eliminate unmatched disbursements, reemphasize the
                                                                 18


need for supporting documentation, implement better integrated

systems and motivate managers to comply more diligently with

DoD policy for periodic review of unpaid obligations.     The

DoD has reported steady progress in decreasing the level of

problem disbursements from $17.3 billion in September 1998 to

$10.5 billion in September 1999.   These reports are encouraging,

but this problem needs to be kept at the forefront of

management’s attention.



Simplifying Requirements



In the mid-1990’s, we recommended that DoD and the Congress

consider ways to reduce the burden on DoD accounting offices and

the risk of errors by simplifying requirements.   The Under

Secretaries of Defense (Comptroller) and (Acquisition,

Technology and Logistics) have pressed the DoD components to

adopt measures to avoid the unnecessary use of multiple accounts

on contracts and commingling of funds from different accounts on

the same contract line item.   Likewise, our office has

periodically commented on the incredible complexity of the DoD

chart of accounts, which is probably unique in the world because

of its hundreds of thousands of accounting entities, and the

absurdly long accounting codes that result.    Those codes must be

applied to many million transactions a year.
                                                                    19




Unfortunately, the budget and appropriation structures are

difficult to change.    The DoD must administer at least 1,200

open appropriation accounts at any given time.    The main driver

of complexity, however, is the business practice of the

individual DoD component.    The Army, for example, has resisted

simplification of either contracts or its chart of accounts, in

effect asserting that it wishes to continue trying to capture

costs and control funds at extremely challenging level of

detail.



Other Previously Identified Concerns



In last year’s testimony we highlighted the Y2K conversion

problem, which DoD did a fine job in overcoming.    DFAS had a

particularly high-profile role in ensuring that military and

civilian payrolls would be met.    We also expressed concern about

information assurance, fraud and limited oversight of finance

operations, particularly vendor pay.    We continue to view DFAS

as a likely target for hackers and are working closely with the

Department to reduce vulnerability to computer crime and other

fraud.    Unfortunately, other priorities and constrained

resources minimized our audit coverage of vendor pay over the
                                                                   20


past year, but we will have new audit results in that area later

this year.



Conclusion



Mr. Chairman, every time we testify on DoD financial management,

we assert that sustained involvement by senior managers and the

Congress are vital ingredients for progress.   This remains very

much the case.   Despite commendable progress, the DoD remains

far from CFO Act compliance and aggressive measures will be

needed over the next few years to achieve success.   Therefore

the DoD audit community, which has invested so much effort and

resources in this area over the past several years, very much

appreciates the Subcommittee’s interest in our activities and

viewpoints.   It may also be useful for me to mention that

IG, DoD, audit reports are available on the Web at

www.dodig.osd.mil.   This concludes my statement.
